So
\

C@QCKLE

Legal Briefs

Est, 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850 Nos. 19-431 & 19-454

LITTLE SISTERS OF THE POOR,

SAINTS PETER AND PAUL HOME,

Petitioner,
Vv.
PENNSYLVANIA, ET AL.,
Respondents.

DONALD J. TRUMP, et al.
Petitioners,

v.
PENNSYLVANIA, ET AL,
Respondents.

AFFIDAVIT OF SERVICE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 9th day of March, 2020, send out
from Omaha, NE 3. package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE CENTER FOR
CONSTITUTIONAL JURISPRUDENCE IN SUPPORT OF PETITIONERS in the above entitled case. All parties required
to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
JOHN C. EASTMAN
ANTHONY T. CASO
Counsel of Record
Claremont Institute’s Center for
Constitutional Jurisprudence
c/o Dale E. Fowler School of Law
Chapman University
One University Drive
Orange, CA 92866
(877) 855-3330
caso@chapman.edu

Counsel for Amicus Curiae

Subscribed and sworn to before me this 9th day of March, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

 
   

    

f GENERAL MOTARY-State of Mebraska
RENEE J. GOSS
My Comm. Exp. September 6, 2023

 

Notary Public

Affiant

thes Oudiawh, Chk

39421
 

Mark Leonard Rienzi The Becket Fund for Religious Liberty 202-349-7208
Counsel of Record 1200 New Hampshire Ave., NW.
Suite 700
Washington, DC 20036

mrienzi@becketlaw.org

Counsel for Petitioner The Little Sisters of the Poor Saints Peter and Paul Home

Michael J. Fischer Pennsylvania Office of Attorney General 215-560-2171
Counsel of Record 1600 Arch St.
Suite 300
Philadelphia, PA 19103

mfischer@attorneygeneral.gov

Counsel for Respondents Commonwealth of Pennsylvania, et al.

Noel J. Francisco Solicitor General 202-514-2217
Counsel of Record United States Department of Justice
Room 5616
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

Counsel for Federal Respondents and Petitioners Donald J. Trump, et al.

 
